No. ______
In the

Supreme Court of the United States
__________________
SHAMBRIA NECOLE SMITH,
Petitioner,
v.
KANSA TECHNOLOGY, L.L.C.,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
Willie G. Johnson, Jr.
Sophia Riley
Derek E. Elsey
THE JOHNSON LAW
GROUP, APLC
(A Professional Law
Corporation)
P.O. Box 84509
Baton Rouge, LA 70884
(225) 717-7070
(225) 930-8573 (fax)

Lawrence R. Anderson, Jr.
Counsel of Record
SEALE, SMITH, ZUBER
& BARNETTE
(A Registered Limited
Liability Partnership)
8550 United Plaza Blvd #28628
Baton Rouge, LA 70809
(225) 924-1600
(225) 924-6100 (fax)
lranderson@sszblaw.com

Counsel for Petitioner
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
The testimony presented in the instant matter as
well as the underlying facts and circumstances reveal
that the following issues, which form the basis of the
appeal, are each to be answered strongly in the
Plaintiff-Appellant’s favor.
A. Whether the District Court violated the Due
Process Clause by disallowing the interview of the
jurors in furtherance of determining whether a jury
taint and/or jury tampering occurred during the
trial proceedings in this matter.
B. Whether the District Court erred in its oral ruling,
whereby Exhibit 7 was permitted for use as an
accident report, that provided Workers’
Compensation references which caused confusion as
evidenced by the jury question prior to verdict.

ii
PARTIES TO PROCEEDING
The undersigned counselors of record for the
Petitioner certify that the following listed persons have
an interest in the outcome of this case. These
representations are made in order that the Judges of
this Court may evaluate possible disqualification or
refusal.
I.

Parties:
a. Petitioner Shamberia Smith was Plaintiff in
the District Court proceedings and the
Appellant the Fifth Circuit case.
b. Respondent KANSA TECHNOLOGY, LLC
was the Defendant in the District Court
proceedings and the Appellee in the Fifth
Circuit case.

II.

Counsel for the Plaintiffs-Appellants
a. The Johnson Law Group, APLC; Willie G.
Johnson, Jr., Sophia J. Riley, Derek Elsey
and Jennifer Robinson

III.

Counsels for the Defendants-Appellees
a. KANSA TECHNOLOGY, LLC –Duplass,
Zwain, Bourgeois, Pfister, Weinstock &
Bogart; Guy Valdin and Jade Wandell

May this certificate of interested parties be deemed
proper in the premise.

iii
STATEMENT OF RELATED PROCEEDINGS
• Shamberia Necole Smith v. Kansa Technology, LLC
and Hammond Daily Star Publishing Company,
Inc., 2016-0002724; Division “A”; 21st Judicial
District Court; State of Louisiana;
• Shamberia Necole Smith v. Kansa Technology, LLC
and Hammond Daily Star Publishing Company,
No. 2:16-cv-16597; United State District Court,
Eastern District of Louisiana (Jury Verdict
Rendered on May 2, 2018 and Final Judgment
Entered on May 4, 2018);
• Shamberia Necole Smith v. Kansa Technology, LLC
and Hammond Daily Star Publishing Company,
No. 18-30900; United States Court of Appeals for
the Fifth Circuit (Judgment entered June 26, 2019)
There are no additional proceedings in any court that
are directly related to this case.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO PROCEEDING . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 5
STATEMENT OF JURISDICTION . . . . . . . . . . . . . 5
STATUTORY PROVISIONS INVOLVED . . . . . . . . 6
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THE PETITION . . . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(May 1, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Order and Reasons in the United
States District Court, Eastern District
of Louisiana
(July 2, 2018) . . . . . . . . . . . . . . . . App. 4
Appendix C Order and Reasons in the United
States District Court, Eastern District
of Louisiana
(June 28, 2018) . . . . . . . . . . . . . . App. 17

v
Appendix D Judgement in the United States
District Court, Eastern District of
Louisiana
(May 3, 2018) . . . . . . . . . . . . . . . App. 22
Appendix E Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Fifth Circuit
(June 18, 2019) . . . . . . . . . . . . . . App. 23
Appendix F U.S. Const. amend. XIV . . . . . . . App. 25

vi
TABLE OF AUTHORITIES
CASES
Abel v. Ochsner Clinic Found.,
No. 06-8518, 2010 WL 1552823
(5th Cir. 2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Green Constr. Co. v. Kan. Power & Light Co.,
1 F.3d 1005 (10th Cir. 1993). . . . . . . . . . . . . . . . 10
Haeberle v. Tex. Int’l Airlines,
739 F.2d (5th Cir. 1984) . . . . . . . . . . . . . . . . . . . 10
Ledet v. United States,
297 F.2d 737 (5th Cir. 1962). . . . . . . . . . . . . . . . 10
United States v. Riley,
544 F.2d 237 (5th Cir. 1976) cert. denied,
430 U.S. 932 (1977). . . . . . . . . . . . . . . . . . . . . . . 10
CONSTITUTION AND STATUTES
28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . . 6
RULES
Fed. R. Civ. P. 5.01. . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Fed. R. Civ. P. 60(b) . . . . . . . . . . . . . . . . . . . . . . . . 6, 9

1
PETITION FOR WRIT OF CERTIORARI
This petition presents the question of whether the
district court violated the Due Process Clause by
disallowing the interview of the jurors in furtherance
of determining whether a jury taint and/or jury
tampering occurred during the trial proceedings in this
matter and whether the District Court erred in its oral
ruling, whereby Exhibit 7 was permitted for use as an
accident report, that provided Workers’ Compensation
references which caused confusion as evidenced by the
jury question prior to verdict.
On April 24, 2018, the Plaintiff objected to the Jury
Verdict Form, R. Doc. #66 in detail regarding the
potential taint with reference to Hammond Daily Star
Publishing and/or Workers’ Compensation.1 The
Plaintiff preserved the record notating its objection
through the R. Doc. #66 and oral argument during the
in chambers conference with the court.
The Court in R. Doc. #87 rendered Judgment
according to the Jury Verdict from the April 30, 2018
trial of this action.2
On May 11, 2018, Plaintiff in R. Doc. #89 filed a
Motion for a New Trial regarding the objected to
inclusion of any mention regarding Hammond Daily
Star relating to the Plaintiff’s Workers’ Compensation.3

1

ROA 1256

2

ROA 1343

3

ROA 1347

2
On May 15, 2018, the Court in R. Doc. #91 denied
the Plaintiff’s request for a new trial in this matter.4
The Court, within the order denying a Motion for
New Trial found the Plaintiff failed to attach a copy of
Exhibit 7 at issue. As argued within the Motion for
New Trial the exhibit is part of this Honorable Court’s
record and Plaintiff requested the exhibit from Defense
counsel prior to submission to the court. Defense
counsel could not locate the exact redacted exhibit thus
the record is the best evidence of the form submitted by
Defense counsel.
As per the ruling within R. Doc. #91 pursuant to an
oral ruling, Exhibit 7 was permitted for use as an
accident report, provided Workers’ Compensation
references were redacted. Plaintiff’s counsel further
argued that any agreements regarding Exhibit 7 were
oversights and therefore Plaintiff’s counsel re-urged
exclusion of any such reference to Workers’
Compensation and specifically any reference to Exhibit
7. In reply, Defense counsel, argued that procedural
convenience would permit the exhibit to be used since
counsel did not previously object to the use of Exhibit 7
and that both parties included said exhibit in the Pre
Trial order served as a basis of Exhibit 7’s use at trial.
Interestingly, Defense counsel did not adequately
and properly redact said document when using in his
opening statement and following the close of the case,
defense counsel could not locate the specific exhibit
which was used in his opening statement nonetheless

4

ROA 1364

3
Exhibit 7 is attached herewith which reveals the
content of the exhibit presented to the jury.
The use of Exhibit 7, the Workers’ Compensation
1008 form, was prejudicial, served no relevant purpose
particularly since the parties agreed to use Exhibits 5
and 6 which were the incident reports to provide the
jury with incident details.
Furthermore, the court in R. Doc. #91 made no
mention of the jury question directly correlating to any
Workers’ Compensation inquiry by the jury. The jury
question is the exact reason the Plaintiff objected to the
court April 30, 2018.
As a result, the court ordered that Workers’
Compensation was not to be referenced in the trial
except that Defense counsel would be permitted to use
Exhibit 7 with redactions during his opening argument
and case in chief.
As a consequence of this prejudicial Exhibit 7, the
jury had one question prior to their verdict, “Does
Shambria Smith have any pending lawsuits
against the Hammond Daily Star? ”5 the
composition and wording of the Verdict Form and Jury
Instructions as a whole likely led to juror confusion.
The Court within its ruling, merely mentioned the jury
questions, however, and did not weigh the evidence
regarding the jury question and its direct correlation to
the objected Exhibit 7 along with the Charge and
Verdict Form objected to by the Plaintiff.

5

ROA 1299

4
The inclusion of the Workers’ Compensation party
(Hammond Daily Star Publishing) as evidenced by the
jury question prior to verdict must have caused juror
confusion.
In essence, the Charge and Verdict Form misled the
jury to render a verdict in favor of the defense as it is
assumed the jury believed the Plaintiff had previously
recovered and/or had a pending suit against Workers’
Compensation.
Additionally, relief should be granted on the
grounds the jury rendered a verdict contrary to the
facts established at trial with respect to an inadequate
warning contained on the KANSA 480 Inserter as there
was no evidence of any warning labels on the subject
portions of the equipment whatsoever thus, no
reasonable jury could find “inadequate warning” as
there cannot be any finding on adequacy by a
preponderance of the evidence when there was
absolutely no evidence adduced at trial of any warning.
In this regard, the Court provided its own evaluation of
the evidence despite Defense witness, Mr. Worthington
testifying during trial there were no warnings labels.
Therefore, Plaintiff respectfully requests that her relief
be granted and all other equitable relief under federal
rules.
In the instant case, “the district court must balance
the losing party’s right to an impartial jury against the
risks of juror harassment and jury tampering.”
Trial took place from April 30, 2018 through May 2,
2018, before an eight-person jury. On May 2, 2018, the
jury returned a unanimous verdict in favor of

5
Defendant. During the trial, Plaintiff’s expert, Lauren
Rivet sat in the hallway of the court awaiting her time
to testify. During this time, Plaintiff’s expert believes
she witnessed interaction of the defense’s support staff
and Ms. Hydel, the courier for one of the juror’s Ms.
Waguespack interacting with each other to be verified.
The Plaintiff is seeking to interview the jury to obtain
any additional information that may or may not
support a finding of a jury taint along with evidentiary
issues. In communicating with jurors, Plaintiff’s
counsel would make it clear that any communication
and participation would be completely voluntary.
Plaintiff’s counsel would conduct its inquiry in a nonconfrontational manner, making sure not to challenge
the juror’s views, reasoning or participation regarding
deliberation. On May 2, 2018, the Defendants stated
they had no objection to interviewing the jurors.
OPINIONS BELOW
The Fifth Circuit’s opinion (May 1, 2019) was
selected for publication and neither was the District
Court’s Opinion (July 2, 2018).
STATEMENT OF JURISDICTION
This is an appeal of the denial of the Motion for
Rule 60(b) Relief by the United States Fifth Circuit
Court of Appeals in a civil action.
This matter proceeded to a trial by Jury, which
commenced on April 30, 2018 pursuant to 28 U.S.C.
§ 1331. This Honorable Court has jurisdiction over this
matter. Judgment was rendered on July 2, 2018,
denying Plaintiff’s request for 60(b) relief. On July 31,
2018, Plaintiff filed a timely Notice of Appeal. The

6
Judgement of the Fifth Circuit was rendered on
June 26, 2019.
STATUTORY PROVISIONS INVOLVED
The relevant provisions of the 14th Amendment
(Appendix F) as it relates to Due Process along with all
other applicable statutes.
STATEMENT OF THE CASE
This matter commenced as a product’s liability
action in the 21st Judicial District Court, in the Parish
of Tangipahoa, State of Louisiana. This matter was
subsequently removed to the Eastern District Federal
Court, Action Number 2:16-cv-16597. This matter
proceeded to jury trial, which began on or about April
30, 2018, which lasted through May 03, 2018, whereby
the jury rendered a verdict in favor of the defendants.
The Petitioner thereafter filed a Motion for New Trial,
Motion for Reconsideration and a Motion for
Miscellaneous Relief, in connection with the
admissibility of Exhibit “7”, along with jury confusion
and taint. Said Motions were denied.
This matter was then subsequently appealed to the
United States Fifth Circuit Court of Appeals, whereby
Judgment was rendered on June 26, 2019.
The applicable provisions of law, which are to be
addressed, are as follows:
Federal Rule of Civil Procedure 60(b), which states
the following:

7
Relief from a Judgment or Order
(a) CORRECTIONS BASED ON CLERICAL
MISTAKES; OVERSIGHTS AND OMISSIONS.
The court may correct a clerical mistake or a
mistake arising from oversight or omission
whenever one is found in a judgment, order, or
other part of the record. The court may do so on
motion or on its own, with or without notice. But
after an appeal has been docketed in the
appellate court and while it is pending, such a
mistake may be corrected only with the
appellate court's leave.
(b) GROUNDS FOR RELIEF FROM A FINAL
JUDGMENT, ORDER, OR PROCEEDING. On
motion and just terms, the court may relieve a
party or its legal representative from a final
judgment, order, or proceeding for the following
reasons:
(1) mistake, inadvertence, surprise, or excusable
neglect;
(2) newly discovered evidence that, with
reasonable diligence, could not have been
discovered in time to move for a new trial under
Rule 59(b);
(3) fraud (whether previously called intrinsic or
extrinsic), misrepresentation, or misconduct by
an opposing party;
(4) the judgment is void;

8
(5) the judgment has been satisfied, released, or
discharged; it is based on an earlier judgment
that has been reversed or vacated; or applying it
prospectively is no longer equitable; or
(6) any other reason that justifies relief.
(c) TIMING AND EFFECT OF THE MOTION.
(1) Timing. A motion under Rule 60(b) must be
made within a reasonable time—and for reasons
(1), (2), and (3) no more than a year after the
entry of the judgment or order or the date of the
proceeding.
(2) Effect on Finality. The motion does not affect
the judgment's finality or suspend its operation.
(d) OTHER POWERS TO GRANT RELIEF. This
rule does not limit a court's power to:
(1) entertain an independent action to relieve a
party from a judgment, order, or proceeding;
(2) grant relief under 28 U.S.C. §1655 to a
defendant who was not personally notified of the
action; or
(3) set aside a judgment for fraud on the court.
(e) BILLS AND WRITS ABOLISHED. The
following are abolished: bills of review, bills in
the nature of bills of review, and writs of coram
nobis, coram vobis, and audita querela.

9
Under Federal Rule of Civil Procedure 60(B), a
motion for relief the court may relieve a party or its
legal representative from a final judgment, order, or
proceeding for reasons set forth in Rule 60.
Rule 60 requires the filing within a reasonable time
and no more than a year after the entry of judgment.
The Plaintiff has timely filed said motion for relief.
Furthermore, the Appellants also argue the
appropriate motion was filed pursuant to Fed. R. Civ.
Proc. 5.01 which states the following:
Rule 5.01 - Juries -- Selection; Instructions;
Prohibition of Post-Trial Interviews No attorney
or party shall undertake, directly or indirectly,
to interview any juror after trial in any civil or
criminal case except as permitted by this Rule.
If a party believes that grounds for legal
challenge to a verdict exist, he may move for an
order permitting an interview of a juror or jurors
to determine whether the verdict is subject to
the challenge. The motion shall be served within
14 days after rendition of the verdict unless good
cause is shown for the failure to make the
motion within that time. The motion shall state
the name and address of each juror to be
interviewed and the grounds for the challenge
that the moving party believes may exist. The
presiding judge may conduct such hearings, if
any, as necessary, and shall enter an order
denying the motion or permitting the interview.
If the interview is permitted, the Court may
prescribe the place, manner, conditions, and
scope of the interview.

10
The court analyzed Haeberle v. Tex. Int'l
Airlines,739 F.2d 1019, 1021 (5th Cir. 1984 and similar
rulings Abel v. Ochsner Clinic Found., No. 06-8518,
2010 WL 1552823, at 1 (5th Cir. 2010); United States v.
Riley, 544 F.2d 237, 242 (5th Cir. 1976) cert. denied,
430 U.S. 932 (1977); Green Constr. Co. v. Kan. Power &
Light Co., 1 F.3d 1005, 1012 (10th Cir. 1993) Ledet v.
United States, 297 F.2d 737 (5th Cir. 1962) the Fifth
Circuit intention to not denigrate the jury trial
afterwards. The Appellant is still entitled to a fair trial
and the issues of potential jury taint should not be
dismissed in an effort to disfavor jury interviews. The
court has wide discretion to allow interviews.
REASONS FOR GRANTING THE PETITION
The decisions, which have been reached by lower
courts, have been clear deviations from the applicable
law, which has been provided herein. It is unequivocal
that in the instant case, the Plaintiff objected to the use
of Exhibit “7”, which in fact was the basis as to why
each of the parties filled their own exhibit and witness
lists because of the ongoing objection to documents. The
court within in chamber Pre-Trial Conference stated
that Exhibit “7” would be allowed but must be
redacted. The court within Rec. Doc #89 ruled the oral
ruling did occur and the record is clear as to the
multiple exhibits and witness lists due to the continued
dispute of admissible documents amongst the parties.6

6

ROA 1364

11
CONCLUSION
The Trial Court erred in disallowing the interview
of the jurors in furtherance of determining whether
jury taint and/or jury tampering had occurred during
trial proceedings in this matter. Furthermore, the Fifth
Circuit erred by failing to overturn the Trial Court’s
ruling.
Appellant further argues that the oral ruling on
Exhibit 7 was permitted for use as an accident report,
yet provided Worker’s Compensation references
causing juror confusion as evidenced by the jury
question prior to verdict.

12
Respectfully submitted:
Lawrence R. Anderson, Jr.
Counsel of Record
SEALE, SMITH, ZUBER & BARNETTE
(A Registered Limited Liability Partnership)
8550 United Plaza Blvd #28628
Baton Rouge, LA 70809
(225) 924-1600
(225) 924-6100 (fax)
lranderson@sszblaw.com
Willie G. Johnson, Jr.
Sophia Riley
Derek E. Elsey
THE JOHNSON LAW GROUP, APLC
(A Professional Law Corporation)
P.O. Box 84509
Baton Rouge, LA 70884
(225) 717-7070
(225) 930-8573 (fax)
Counsel for Petitioner

